                            ISSUE BRIEF



Enhancing the Value of Mail
Follow-Up:
Discussion Forum Recap
April 3, 2014




                     Report Number: RARC-IB-14-001
                                                              EXECUTIVE SUMMARY

       Enhancing the Value of Mail Follow-Up:
             Discussion Forum Recap
Hard copy communication is not the relic
                                                                    Highlights
some claim it to be. Well-designed, digitally-
interactive mail elicits a strong connection          A number of key themes emerged:
from its recipients and presents new
                                                      First, mail is a critical piece of an
opportunities to reach and build relationships
                                                      omnichannel strategy, which gives
with them. These findings — featured in a             consumers a seamless and meaningful
recent U.S. Postal Service Office of Inspector        experience across a variety of media
General (OIG) white paper, Enhancing Mail             channels and provides marketers with a
for Digital Natives — were explored in detail         rich source of useful information.
during an OIG-hosted forum held on January
21, 2014, with marketing, communications,             Second, consumers prefer personalized
                                                      mail from companies that value their
and mailing industry experts.
                                                      privacy.
OIG officials discussed their past work             Third, new technologies, like near field
highlighting how most Digital Natives are           communication (NFC) and augmented
interested in receiving mail, especially when it reality, provide exciting ways for mailers
includes digital features and is tailored to their to interact with customers.
interests. Klaus Schulz, former president of
                                                    Finally, there is a strong interest among
the European Envelope Manufacturers’
                                                    printers, marketers, and advertisers to
Association, then presented scientific              incorporate this technology into
research from Europe showing that, more             traditional direct mail.
than digital communication, hard copy
communication fosters an emotional connection that increases both readers’ attention and
marketers’ returns on investment. Finally, a panel of leading industry players discussed their
companies’ use of cutting-edge technology and print innovations to make mail more personal,
relevant, digitally enabled, and central to the consumer’s experience with a brand or product.
A number of key themes emerged from the forum. First, mail is a critical piece of an
omnichannel strategy, which gives consumers a seamless and meaningful experience across
a variety of media channels and provides the marketer with a rich source of useful information.
Second, consumers prefer personalized mail from companies that value their privacy. Third,
new technologies, like near field communication (NFC) and augmented reality, provide
exciting ways for mailers to interact with consumers. Using these methods to make mail more
worthwhile to recipients will enhance the value of mail. After all, it is the recipient’s valuing of
the mail that keeps the medium relevant to all.

U.S. Postal Service Office of Inspector General                                          April 3, 2014
                                                  i
RARC-IB-14-001                                                         Enhancing the Value of Mail Follow-Up: Discussion Forum Recap




                                                  Table of Contents
Introduction ..................................................................................................................... 1

The Round Table ............................................................................................................ 1

Key Themes .................................................................................................................... 2
     Omnichannel Strategy ............................................................................................... 3
     Personalization .......................................................................................................... 5
     Technological Innovation ........................................................................................... 8

Conclusion .................................................................................................................... 10


                                                      Appendix
Participant Biographies ................................................................................................. 11


                                                        Figures
Figure 1                  Omnichannel Marketing Strategy .......................................................... 4

Figure 2                  Additional Channels, Better Response .................................................. 5

Figure 3                  A Short Time for Mail to Make an Impression ........................................ 7

Figure 4                  Blippar's Maybelline Advertisement ....................................................... 9


                                                         Videos
Video 1                   Maybelline Nail Polish ........................................................................... 8

Video 2                   LEGO Connect ...................................................................................... 9




U.S. Postal Service Office of Inspector General                                                                         April 3, 2014
                                                                 ii
RARC-IB-14-001                                              Enhancing the Value of Mail Follow-Up: Discussion Forum Recap




        Enhancing the Value of Mail Follow-Up:
              Discussion Forum Recap

Introduction
Hard copy communication is often cast as a relic in the age of digital innovations.
However, this is far from true, according to leading communications and marketing
experts who attended the “Enhancing the Value of Mail” forum hosted by the U.S.
Postal Service Office of Inspector General (OIG) on January 21, 2014. Inspired by the
OIG’s recently released white paper, Enhancing Mail for Digital Natives, the forum
highlighted that mail, when well designed or digitally interactive, elicits a strong
connection with its recipients, particularly Digital Natives, who have grown up with
technology. As this group continues to gain market influence, it will be essential for
stakeholders along the broader mail value chain, from marketers and designers to
printers, mail service providers, and the Postal Service to modernize the mail in order to
keep the medium relevant and effective.

Hailing from a variety of industries, forum participants and panelists included Postal
Service officials, members of the Universal Postal Union, mailers, consultants,
innovative technology companies, and mail service providers. The panelists discussed
exciting technological advancements in design, paper, printing, and digital elements that
make mail more intriguing, valuable, and relevant to recipients. 1

The Round Table
The event had three parts. First, the OIG introduced findings from its white paper.
Digital Natives participating in its focus groups are indeed interested in receiving mail.
Well-designed mail integrating digital features is especially valuable for those
accustomed to mobile and other technology. Relevance was also paramount for focus
group participants, who reacted more strongly to mail tailored to their individual
interests. In addition, the study revealed that packages are the new anchor to the mail,
meaning that the anticipation of receiving a package
— an important event for this group — drives them          Enhanced mailpieces make
to pay closer attention to mail.                           mail more interesting for the
                                                                         reader, and they can lead to
Next, Klaus Schulz, former president of the              more purchases.
European Envelope Manufacturers’ Association,
presented scientific research showing how the brain reacts to physical mail. The global
mailing expert shared evidence showing how hard copy communications foster an
emotional connection that increases both readers’ attention and marketers’ return on
investment. A study of transactional mail found that new customers who received hard

1
    Biographies of each panelist are in the appendix.


U.S. Postal Service Office of Inspector General                                                              April 3, 2014
                                                        1
RARC-IB-14-001                                        Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



copy bills paid more quickly and required less customer service (i.e., were less
expensive to manage) than customers who received electronic bills.

Finally, a panel discussed how impactful design and digitally interactive features are
effective elements of successful omnichannel campaigns. These campaigns are
sophisticated, data-rich marketing efforts that provide integrated experiences to
consumers across multiple platforms. The panelists provided the following insights:

     •     Andy Bear, Multichannel Technology Manager with Quad/Graphics, a global
           provider of print and multichannel solutions, noted that new technologies provide
           a way to better personalize traditional mail, whether through printing or
           processing. To maximize effectiveness, the technology needs to be integrated
           with the content, customer analytics, and other marketing channels.

     •     Jonathan Margulies, Managing Director of marketing firm Winterberry Group,
           opened by stating that enhanced mail is a key to maintaining relevance in a
           multimedia world. With direct mail growth lagging behind new digital media, mail
           marketers need to adopt tools and skills to bring mail into modern, omnichannel
           marketing campaigns. It is not enough to simply introduce technological
           elements, but the content and the multimedia tools have to meet the needs of
           consumers.

     •     Bill Berkley, President and CEO of envelope manufacturer Tension Envelope
           Corporation, focused on the need for immediacy in engaging the mail
           recipient — whether through tactile, visual, or cerebral elements. Technology can
           serve as a catalyst in this process, either before or after the envelope is opened.

     •     Lisa Hu, Vice President and General Manager of Blippar, a company that brings
           image recognition and augmented reality to mobile devices, demonstrated how
           new technology using mobile devices can help communicate a marketing
           message along multiple media. The outcome can be greater engagement with
           the consumer, resulting in increased brand awareness.

     •     Barbara Fisher, North American Regional Manager for the Organic and Printed
           Electronics Association, highlighted current technologies such as heat sensors
           and illuminated images. She explored the potential for these low-cost electronics,
           which can be printed onto an envelope or package as well as its contents. The
           technology can create many types of interactive mail, from a buildable record
           player in a magazine, to smart packaging to monitor the temperature of food or
           medicine as it travels through the mail system.

Key Themes
As the forum covered a wide variety of topics and unique insights, three key themes
emerged:




U.S. Postal Service Office of Inspector General                                                        April 3, 2014
                                                  2
RARC-IB-14-001                                             Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



     •     Omnichannel Strategies Are Most Effective — Unlike traditional marketing
           efforts, these campaigns not only span a number of media and channels, but
           also are integrated with one another, providing the recipient with a seamless and
           meaningful experience and the marketer with a rich source of relevant consumer
           information and higher customer engagement.

     •     Personalization Creates Relevant Mailpieces — Consumers want to receive
           mail pertinent to them, whether through categories relative to their interests,
           channels they feel comfortable with, or copy targeted to their values. At the same
           time, mailers should be aware of privacy concerns.

     •     Technological Innovation Fosters Direct Mail — New technology such as near
           field communication (NFC) and augmented reality enhances personalization,
           provides new ways for the mailer to interact with the customer, and links
           disparate elements of a marketing campaign.

Omnichannel Strategy
Understanding the changing value of mail — both to mailers and recipients — requires
reviewing how new technologies change the role of marketing and media channel
selection. Smart devices and computing power generate a torrent of new data, allowing
new levels of analytics and increasing sophistication in integrated media planning, or, as
several speakers termed it, “omnichannel marketing.” An omnichannel approach allows
retailers to engage consumers in new comprehensive ways, possibly leading to
heightened brand awareness and a quicker decision to purchase, which is further
enabled through convenient mobile shopping.

Earlier marketing campaigns were simpler. Marketers would choose a distinct medium
based on whichever channel generated the most sales. Next came multichannel
marketing, where marketers would spend across a wide spectrum of media rather than
investing in one or two channels. When using a multichannel approach, marketers
expected that each medium would act in isolation, serving a particular role. For
example, an auto dealer would have weekly mailings to promote certain cars on the lot,
while its television advertising promoted its role in the community and its friendly
salespeople.

Although the concept of omnichannel originated in the 1970s, today’s approach uses
the best attributes of each channel to provide the consumer with a seamless brand and
purchasing experience. 2 For example, a recent Marks & Spencer print campaign
allowed users to scan eye-catching advertisements with mobile devices and
immediately be taken to an online page to conveniently purchase the items. 3 The same
experience is possible through catalogs and other mail, giving consumers the option to

2
  The Winterberry Group, Taking Cues From the Customer: ’Omnichannel’ and the Drive For Audience Engagement,
June 2013, http://www.neustar.biz/information/docs/pdfs/iab-winterberry-white-paper---omnichannel-audience-
engagement-.pdf.
3
  “M&S Spring/Summer,” Aurasma, 2013, http://www.aurasma.com/campaigns/ms-springsummer/.


U.S. Postal Service Office of Inspector General                                                             April 3, 2014
                                                     3
RARC-IB-14-001                                              Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



receive items at their homes or to pick them up at a nearby store. This experience
involves many channels, but the customer has a unified experience (See Figure 1). 4

                                     Figure 1: Omnichannel Marketing Strategy




                    Source: Winterberry Group, 2014.

Omnichannel communication provides a way for companies to create a branded
shopping experience, whether the consumer is in a brick-and-mortar store or the
comfort of his or her own home. A key component of this approach is physical-digital
integration, another recurring theme highlighted during the forum. Connecting the
channels in a new, personalized way can raise
brand awareness, improve response rates, and           Physical-digital integration
enhance consumers’ entire experience. As               is an effective component of
illustrated recently by a market research firm,        an omnichannel campaign.
Quad/Graphics’ Andy Bear noted that introducing
a campaign across a number of media could boost the response rate by 45 percent
(See Figure 2). 5

Also highlighted in the forum was a European study examining a campaign that
integrated e-mail newsletters with print catalogs to increase the response rate by almost
3 percent and net sales by around 9 percent. 6 Such clear returns on investment
demonstrate the viability of mail to reach consumers as a component of a larger,
effective omnichannel strategy.
4
  Jonathan Margulies, “Taking Cues from the Customer: Direct Mail and the Drive for Omnichannel Engagement,”
(Winterberry Group presentation, Enhancing the Value of Mail Discussion Forum, January 21, 2014), slide 5.
5
  InfoTrends, Inc., Understanding Vertical Markets: Enterprise Communication Requirements, 2012,
http://store.infotrendsresearch.com/product_p/129462.htm.
6
  Stefanie Streif, “Papier Pusht,” Acquisa, January 2014, www.acquisa.de, p. 26.


U.S. Postal Service Office of Inspector General                                                              April 3, 2014
                                                        4
RARC-IB-14-001                                               Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



                                 Figure 2: Additional Channels, Better Response




                 Source: InfoTrends, 2012.

For mailers to stay current with their audiences, they must put an ever-greater emphasis
on “rich content” that fosters increased consumer engagement, response rates, or
purchases that provide clear results for the marketer’s bottom line. 7 The content in mail
has moved beyond copy. It may not be enough to create an eye-catching piece of mail;
new technologies and other enhancements could be integrated to help influence
consumer behavior.

Personalization
As campaigns begin to span across more channels,
consumers will be exposed to more advertising than       Personalized pieces can
ever before. Thirty years ago, the average city dweller  garner a 6.5 percent
                                                         response rate, over three
saw 2,000 advertisements a day, most of them on
                                                         times more than regular
television and in what they read. 8 In 2007, a study     direct mail’s response rate.
estimated that a city dweller sees 5,000 advertising
messages a day. 9 This creates fierce competition for
attention. Relevance is becoming increasingly important, and advances in consumer
data analytics and printing technology make personalized mail a reality. At the same

7
  Rich content can include interactive media or personalized messages.
8
  Louise Story, “Anywhere the Eye Can See It’s Likely to See an Ad,” New York Times, January 15, 2007,
http://www.nytimes.com/2007/01/15/business/media/15everywhere.html?pagewanted=all&_r=0.
9
  Ibid.


U.S. Postal Service Office of Inspector General                                                               April 3, 2014
                                                        5
RARC-IB-14-001                                                 Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



time, as noted in the OIG focus groups, companies should focus on honoring privacy
concerns. Personalized messages must balance how much a company may know
about a customer with how much that customer wants and expects it to know.

Bill Berkley of Tension Envelope Corporation explained the limited window a marketer
has to catch the attention of their audience. He introduced Direct Mail’s 3:30:3 rule. The
rule asserts that the average consumer decides in 3 seconds whether to keep or throw
away a piece of mail (See Figure 3). 10 Of those the consumer decides to keep for later
inspection, the average length of time spent with each is 30 seconds. 11 Finally, the
marketer has 3 minutes or less for getting contents read and a response generated. The
practical implication is to make your mailpiece stand out to catch the recipient’s
attention within the parameters of the 3:30:3 rule. Many forum presenters mentioned
that tailored content and relevance are crucial for gaining and holding attention.

A recent IBM study found that people from every age group desired more personalized
discounts. 12 One way to provide unique discounts is through variable data printing,
which enables even the largest marketers to personalize every message or coupon
based on an individual’s past habits. Personalized pieces can garner a 6.5 percent
response rate — more than three times regular direct mail’s 2 percent response rate. 13
Not surprisingly, to use variable data printing effectively the advertiser must have a
certain amount of information about the consumer. The good news is that more
information than ever before is being collected about consumers’ purchasing patterns.

Advertisers must be cautious, however, about how they use consumer information.
Consumers are sensitive about the collection of their personal data and how marketers
will ultimately use it. Consumers report that they are more likely to use a coupon that is
relevant to them, but, as Target stores found, over-personalization can backfire. The
retailer found that when its customers received relevant coupons, especially when it
related to a life change, like having a baby; it alarmed customers because they felt their
privacy had been invaded. 14 In Target’s case, adding general deals among personalized
offers caused customers to use the deals, while keeping their sense of privacy intact. 15




10
   Bill Berkley, (Tension Envelope Corporation presentation, Enhancing the Value of Mail Discussion Forum, January
21, 2014), slide 7.
11
   Ibid.
12
   IBM Institute for Business Value, “Meeting the Demands of the Smarter Customer,”
http://www.ibm.com/common/ssi/cgi-
bin/ssialias?subtype=XB&infotype=PM&appname=GBSE_GB_TI_USEN&htmlfid=GBE03281USEN&attachment=GB
E03281USEN.PDF, p. 8.
13
   Melissa Data, “Melissa Data Releases Information that Shows the Effectiveness of Highly Personalized Direct Mail”
Sept. 12, 2012, http://www.melissadata.com/newsreleases/effectiveness-of-highly-personalized-direct-mail.htm; and
QuantumDigital, A Case for Personalization: Proof that Relevant Content is King,” July 2009,
http://quantumdigital.com/graphicsserver/rhfiles/media/pdf/whitepaper_personalization.pdf, p. 2.
14
   Charles Duhigg, “How Companies Learn your Secrets,” New York Times, February 16, 2012,
http://www.nytimes.com/2012/02/19/magazine/shopping-habits.html?pagewanted=all.
15
   Ibid.


U.S. Postal Service Office of Inspector General                                                                 April 3, 2014
                                                         6
RARC-IB-14-001                                                  Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



                            Figure 3: A Short Time for Mail to Make an Impression




                       Source: Tension Envelope Corporation, 2014.

Two recent OIG studies found that people of all ages, from across the country, worry
about how much of their information is available to retailers. 16 Interestingly, Digital
Natives were more likely to report concerns about how mailers without tailored
messages got their information. 17 If the outside of the mailpiece was personalized with
their name, but the content was not relevant, they felt like their privacy was violated
because their identity had been sold to another company without their consent.
Alternatively, when they saw a relevant advertisement, these concerns disappeared,
and they were even amenable to a one-click purchase by scanning the mailpiece with
their phones. When the company was promoting a product they were interested in
purchasing, they wanted — sometimes even expected — the company to have their
data, especially if they had shopped there before. Convenience trumped privacy.

The importance of relevance cannot be overstated, but at the same time, consumers do
not want to feel that their privacy has been violated. This expectation of privacy varies
depending on the consumer’s relationship with the company and is an area ripe for
further exploration.




16
   U.S. Postal Service Office of Inspector General, Enhancing Mail for Digital Natives, Report No. RARC-WP-14-001,
November 18, 2013, https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-14-
001_enhancing_mail_for_digital_natives.pdf; and U.S. Postal Service Office of Inspector General, What America
Wants and Needs from the Postal Service, Report No. RARC-WP-14-009, February 18, 2014,
https://www.uspsoig.gov/sites/default/files/document-library-files/2014/rarc-wp-14-009_1.pdf.
17
   USPS OIG, Enhancing Mail for Digital Natives, p. 9.


U.S. Postal Service Office of Inspector General                                                                  April 3, 2014
                                                           7
RARC-IB-14-001                                                   Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



Technological Innovation
New technology plays a central role in bringing greater personalization and a better
omnichannel experience to direct mail; it provides new ways for the mailer to interact
with the customer and acts as a tool to link together
different elements of a marketing campaign. During the       Video 1: Maybelline Nail
forum, some presenters showed examples of the                          Polish
technology available to enhance mailpieces. Three types
of enhancements discussed were augmented reality,
NFC, and electronics in print.

Augmented reality was an example in both
Quad/Graphics’s and Blippar’s presentations. To use
augmented reality, the consumer must download an
application to their mobile device. Augmented reality
currently has no standard technology or software; each
advertisement may require a separate application
download to access content. Once the program is open,
                                                              http://www.youtube.com/v/
they scan the printed piece, whether it is a page in a
                                                                     xtZVy67hRNE
magazine or a letter, which opens a new, interactive
element on the mobile device. The digital element can use the consumer’s surroundings
through a smartphone or tablet’s camera or link to a full website. One example of
augmented reality is an application that allows consumers to virtually try on a nail polish
before buying it simply by taking a picture of their hand (See Figure 4). 18 Another
example shown at the conference was a Lego catalog that, when scanned, showed a
3D version of the Lego set travelling through the screen and interacting with other Lego
creations. 19

                                The U.S. Postal Service (Postal Service) has used
  Augmented reality, NFC,
                                augmented reality in the past, both for novelty and
  and electronics in print can  utility. In 2009, the Postal Service launched an
  engage the user and allow     augmented reality application that worked with a
  them to make purchases        computer’s webcam to show what size box was
  straight from the mailpiece.  needed for an object the user wanted to ship. 20 During
                                the Blippar presentation, the presenter brought up a
                                2014 holiday campaign by the Postal Service. They
created an experience that showed a user’s package as a gingerbread house when the
package was “blipped.”

NFC is different from augmented reality in that it does not require the user to download
an application to use it. An increasing number of phones are NFC-enabled, meaning
that they have an NFC chip embedded in them and can communicate with other NFC

18
   Blippar, “Virtual Nail Varnish. How to ‘Try on’ 40 New Maybelline Polishes with Blippar!” Sept. 17, 2012,
https://blippar.com/en/blog/28-virtual-nail-varnish-how-to-try-on-40-new-maybelline-polishes-with-blippar.
19
   “Lego//Spring 2013 Catalog,” DAQRI, 2014, http://daqri.com/project/lego/#.Ux231_RDs4k.
20
   Brian Morrissey, “Postal Service Brings Augmented Reality Down to Earth,” Adweek, June 9, 2009.


U.S. Postal Service Office of Inspector General                                                                   April 3, 2014
                                                           8
RARC-IB-14-001                                              Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



chips when in close range. The consumer decides whether to enable NFC on his or her
device. This type of technology requires the consumer to place their activated phone
within a couple of inches of an advertisement embedded with an NFC chip. The two
chips will communicate and automatically bring up a new page on the smartphone,
allowing the user to get a better view or feel for some part of the product. This
                              technology allows the consumer to access more
   Video 2: LEGO Connect      information than just a print advertisement can offer and
                              make an immediate purchase. Originally very expensive,
                              this type of advertising chip is rapidly dropping in price,
                              allowing for wider use. Proximity marketing will allow
                              advertisers to target messages to people already near their
                              product and then track use of the NFC portion in real time.
                              The Postal Service has encouraged mailers to use both
                              NFC and augmented reality by offering promotions to
                              mailers who use emerging technologies.

                               Printed electronics are another possible enhancement for
                               mail. Circuits are getting thinner, which is good news for
                               the print industry. This allows for embedding them into
                               paper products, including mail. The possible implications of
  https://www.youtube.com/
     v/rJ4I-_TkGbE#t=11        printed electronics are huge. Already, some
                               advertisements utilize printed electronics to create
advertisements that light up when activating a motion sensor. Some companies have
used advertising campaigns that incorporate video into print pieces, like magazines,
through the inclusion of a circuit, speaker, and battery in a thicker page. This type of
printed electronic will soon be thin and flexible. Printed electronics could be used in the
future on packaging to show logistics details, provide sensors that monitor when a
product has gotten too warm or cool to be used safely, or give more information about
the item enclosed. Putting electronics into the printed piece truly bridges the gap
between the digital and physical. Interactive pieces create more utility and increased
interest in a piece.

                                   Figure 4: Blippar's Maybelline Advertisement




Source: Maybelline New York, 2014.



U.S. Postal Service Office of Inspector General                                                              April 3, 2014
                                                        9
RARC-IB-14-001                                                   Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



At this point, a marketer using any of these print innovations is likely considered to be
an early adopter and will generate buzz. Consumers are already responding well to
technology in print, with one presenter reporting that consumers spent an average of
4.2 minutes with the augmented reality application they accessed through an
advertisement in a magazine. 21 Compare that with the 3 minutes cited in the 3:30:3 rule
mentioned previously. 22

Conclusion
Enhancing the value of mailpieces and parcels for recipients is important to the viability
of the entire mail value chain. The Enhancing the Value of Mail Discussion Forum
created an opportunity for different parts of the mailing industry to learn more about
options available to engage customers, whether through eye-catching paper,
personalized coupons, or augmented reality applications — all of which make mail a
useful tool in comprehensive marketing campaigns. The more mail integrates
seamlessly with other media, the more useful it will become to recipients. After all, it is
the recipient’s valuing of the mail that keeps the medium relevant to all.




21
     Lisa Hu, (Blippar presentation, Enhancing the Value of Mail Discussion Forum, January 21, 2014), slide 50.
22
     See Figure 3: A Short Time for Mail to Make an Impression.


U.S. Postal Service Office of Inspector General                                                                   April 3, 2014
                                                           10
RARC-IB-14-001                                         Enhancing the Value of Mail Follow-Up: Discussion Forum Recap




Appendix                           Participant Biographies

Klaus Schulz, IGB Consult
k.schulz@igbconsult.de

Klaus Schulz is the managing director of the German Envelope Association and a board
member of the Global Envelope Association, working to connect the envelope with the
digital world. From 2005–2008, he was the president of the European Envelope
Manufacturers Association. Mr. Schulz has worked in the envelope business since
1995, after joining the Bertelsmann Group as sales director for gravure printing in 1980.
He has been a marketing specialist at Lufthansa Sales Promotion, Ogilvy & Mather, Leo
Burnett, and Gillette Product Management.

Andy Bear, Multichannel Technology Manager, Quad/Graphics
Andy.Bear@qg.com

Andy has over 30 years’ experience in graphic communications, technical
implementation, and product development. His experiences include client-focused
solution development, marketing, automated composition, logistics, database publishing
and web portal delivery. His solid understanding of print manufacturing, distribution, and
multichannel solutions is a powerful combination for Quad Graphic's clients. In the
Media Solutions group, he focuses on client collaboration and providing innovative
insights on how Quad can support customer-centric business needs incorporating
cross-media solutions.

Bill Berkley, President & CEO, Tension Envelope Corporation

Bill Berkley is president and CEO of Tension Envelope Corporation, a Kansas
City-based company with sales and manufacturing facilities across the United States
and around the globe. During his tenure, Tension has grown to become the second-
largest domestic envelope manufacturer, known for its innovative envelope solutions
and services and environmentally responsible options, holding more patents than all
other envelope manufacturers combined. Mr. Berkley is the immediate past chair of the
Envelope Manufacturers Association and chairs its Public Policy Committee. He earned
an MBA at the Amos Tuck School of Business at Dartmouth College. He graduated cum
laude from Colorado College in 1978 with a B.A. in History.

Jonathan Margulies, Managing Director, Winterberry Group
jmargulies@winterberrygroup.com

Jonathan Margulies leads the development of Winterberry Group’s research and
thought leadership initiatives, including its popular series of white papers, quarterly
economic analyses, and collaborations with industry and trade associations around the
globe. Before joining the firm, he served as communications director for the Sergeants
Benevolent Association, a 10,000-member organization of New York City police


U.S. Postal Service Office of Inspector General                                                         April 3, 2014
                                                  11
RARC-IB-14-001                                         Enhancing the Value of Mail Follow-Up: Discussion Forum Recap



supervisors. He has held positions in marketing, public relations, and digital media at
British Airways USA, Burson-Marsteller, Hill & Knowlton, and the New York Mets. Mr.
Margulies received a B.S. in economics, with a concentration in management, from the
Wharton School at the University of Pennsylvania.

Lisa Hu, Vice President & General Manager, Blippar
Lisa.hu@blippar.com

Lisa Hu currently oversees Blippar's operations and partnerships in the United States.
Blippar is the first mobile visual discovery app and platform that empowers brand and
media owners to connect with their consumers in new ways, enabling interactive and
augmented reality mobile experiences. Blippar started in the U.K. and launched in the
U.S. in August 2012; within the first year, Ms. Hu and team have secured partnerships
with Fortune 500 companies such as Proctor & Gamble, PepsiCo, Anheuser Busch,
General Mills, Kraft, IBM, Time Inc, and many more. Blippar has also recently launched
a campaign with USPS.

Prior to Blippar, Ms. Hu was the Director of Media Strategy at Reuters, and worked in
management positions at ESPN and Amazon UK within various strategy & media
divisions. Prior to that, Ms. Hu was Manager of Communications & High Tech at
Accenture.

Ms. Hu holds a B.B.A. from the University of Michigan-Ann Arbor and an MBA from
London Business School.

Barbara M. Fisher, Regional Manager, OE-A North America
Barbara.fisher@oe-a-na.org

Barbara Fisher has been the regional manager, North America, for the Organic and
Printed Electronics Association (OE-A) since 2008. She has held marketing positions at
The Valspar Corporation, PPG Industries, and Emerson. Ms. Fisher holds a B.A. in
international business and an MBA in marketing. She lives in Pittsburgh, Pennsylvania.




U.S. Postal Service Office of Inspector General                                                         April 3, 2014
                                                  12
RARC-IB-14-001                                                   Enhancing the Value of Mail Follow-Up: Discussion Forum Recap




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                                   April 3, 2014
